CERTIFICATEOF WORDCOUNT
Pursuant to Supreme Court Rule 33.l(h), the undersigned hereby
certifies that the Brief for United Farm Workers of America as Amicus

Curiae in Support of Respondents complies with word limitations under
Supreme Court Rule 33.1 (g)(xii) as this brief contains 7043 words,
including footnote text , but excluding the parts of the brief exempted
under Supreme Court Rule 33.l(d) (question presented , table of
contents, table of authorities, and the list in g of counsel at the end of the
brief).

February 12, 2021

MARIO MARTINEZ

Counsel of Rec rd
MARTINEZAGUILASOCHO& LYNCH

A PROFESSIONAL LAWCORPORATION
Physical: 1527 19th St. #332
Bakersfield, CA 9330 1
Mailing: P. 0. Box 1998
Bakersfield, CA 93303
(661) 859-117 4
mmartinez@farmworkerlaw.com
Attorneys for Amicus Curiae United Farm
Workers of America

